                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
                                                                   OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM

11   Case Number: A-03040017
                                                                                        11      Page 1 of 1



          On 24 April 2003, we received an allegation that the subjects" NSF proposal (focus propo~al)~
          contained ideas similar to those in another NSF proposal (source propo~al),~ and that one or both
          of the subjects must have reviewed the source proposal and inappropriately copied some of the
          ideas. We determined that one of the subjects (subject 1) received the source proposal to review
          prior to submitting the focus proposal to NSF.

          Our review showed that the subjects submitted three proposals to NSF over the past 3 years, the
          most recent of which was the focus proposal. The two earlier NSF proposals4had the same title
          and described the same project as the focus proposal with very few changes. Comparison of the
          reviewers' descriptions of the subjects' earlier proposal submitted prior to subject 1's receipt of
          the source proposal for review with the focus proposals submitted afterwards showed that the
          projects and ideas remained virtually unchanged. The existence of these essentially similar
          proposals showed that subject 1's receipt of the source proposal for review apparently resulted in
          no change to the subjects' focus proposal.

          Further, the reviewers' descriptions of the source proposal's project showed that, although the source
          proposal and the focus proposal were similar, they were not the same. We concluded that the
          reviewers' assessment of the complainant's and the subjects' proposed projects showed that the
          projects were different and there was no substance to the alleged intellectual theft by the subjects.

          This case is closed and no further action will be taken.




                   ,       "with   the subiects as PI and co-PI, was submitted on




II
 NSF OIG Form 2 (1 1/02)
